Report No. D-2011-029              December 22, 2010




      Projects to Replace Pumping Station and Repair
           Landscape at Ellsworth Air Force Base,
           South Dakota Generally Complied with
                 the American Recovery and
                      Reinvestment Act
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AFB                           Air Force Base
FAR                           Federal Acquisition Regulation
FBO                           Federal Business Opportunities
FPDS                          Federal Procurement Data System – Next Generation
MACC                          Multiple Award Construction Contract
MATOC                         Multiple Award Task Order Contract
OMB                           Office of Management and Budget
QMAD                          Quantitative Methods and Analysis Division
TAFS                          Treasury Account Fund Symbol
USACE                         United States Army Corps of Engineers
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON , VIRGINIA 22202-4704


                                                                       December 22, 2010



MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                   (FINANCIAL MANAGEMENT AND COMPTROLLER)
               COMMANDING GENERAL, U.S. ARMY CORPS OF
                   ENGINEERS

SUBJECT: Projects to Replace Pumping Station and Repair Landscape at Ellsworth Air
         Force Base, South Dakota Generally Complied with the American Recovery
         and Reinvestment Act (Report No . D-20 11-029)

We are providing this report for your information and use. We performed this audit in
response to the requirements of Public Law 111-5, "American Recovery and
Reinvestment Act of2009" (Recovery Act), February 17,2009. We determined the
Pumping Station and Landscape projects addressed valid requirements and generally
complied with Recovery Act requirements. We considered management comments on a
discussion draft of this report in preparing the final report. No additional comments are
required.

We appreciate the courtesies extended to the staff. Please direct questions to
Mr. Michael Joseph at (757) 872-4698.



                                           tbLJ~
                                             Alice F. Carey          r
                                             Assistant Inspector General
                                             Readiness, Operations, and Support
Report No. D-2011-029 (Project No. D2009-D000LF-0298.004)                       December 22, 2010

                 Results in Brief: Projects to Replace Pumping
                 Station and Repair Landscape at Ellsworth
                 Air Force Base, South Dakota Generally
                 Complied with the American Recovery and
                 Reinvestment Act

What We Did                                           The task order for the Pumping Station Project
Our overall objective was to evaluate DoD’s           improperly contained multiple Buy America
implementation of Public Law 111-5,                   Federal Acquisition Regulation (FAR) clauses.
“American Recovery and Reinvestment Act               During the audit, USACE Omaha District
of 2009,” February 17, 2009, (Recovery Act).          personnel issued a modification to remove the
Specifically, we reviewed the planning, funding,      unnecessary clause from the task order. The
execution, and tracking and reporting of              Request for Proposal for the Landscape Project
Recovery Act Project 1527, “Replace Capehart          also improperly contained multiple Buy
Pumping Station,” (Pumping Station Project)           America FAR clauses. However, we made no
and Project 1528, “Repair Backyard Landscape          recommendation to modify the task order
in Rushmore Heights,” (Landscape Project) at          because the project is complete and no foreign
Ellsworth Air Force Base (AFB) to determine           materials were bought for use in the project.
whether efforts of the United States Army Corps
of Engineers (USACE) and Ellsworth AFB                We found the contractor for the Landscape
activities complied with Recovery Act                 Project was using the wrong Treasury Account
requirements and subsequent related guidance.         Fund Symbol when reporting to the
                                                      Recovery.gov Web site. We notified
                                                      28th Comptroller Squadron personnel, who
What We Found                                         contacted the contractor to make the correction.
We determined that the Pumping Station Project        Our subsequent review of the Web site verified
and the Landscape Project addressed valid             the contractor made the correction.
requirements. The 28th Civil Engineer
Squadron, the 28th Comptroller Squadron, and          What We Recommend
the 28th Contracting Squadron at Ellsworth AFB
and the USACE Omaha District generally                This report contains no recommendations.
planned and executed the projects as required by
the Recovery Act. Also, USACE Headquarters            Management Comments
and the Air Combat Command distributed                In preparing this report, we considered
Recovery Act funds to support the projects in a       comments on a discussion draft report from
timely manner, and the contractor reported            Ellsworth AFB personnel. Personnel from
information required by the Recovery Act.             USACE had no comments on the discussion
                                                      draft report.
Although the projects were valid requirements,
the underlying assumptions and analysis used to
develop the project cost estimates were not
documented. However, we believe the risk
associated with the lack of supporting
documentation was mitigated because the task
orders for both projects were awarded
competitively on a firm-fixed-price basis.
Table of Contents

Introduction                                                                 1

      Objective                                                              1
      Background                                                             1
      Review of Internal Controls                                            2

Audit Results. Pumping Station Project                                       3

      Planning: Project Needed But Cost Estimate Not Adequately Supported   3
      Funding: USACE Headquarters Distributed Recovery Act Funds Timely     4
      Execution: Initial Project Execution Adequate                         4
      Tracking and Reporting: Contractor Reported Required Information      5
      Conclusion: Project Implementation Generally Complied with
       Recovery Act                                                          5

Audit Results. Landscape Project                                             6

      Planning: Project Needed But Cost Estimate Not Adequately Supported   6
      Funding: Air Combat Command Distributed Recovery Act Funds Timely     6
      Execution: Project Execution Adequate                                 7
      Tracking and Reporting: Contractor Reported Required Information
       But Cited Incorrect TAFS                                             8
      Conclusion: Project Implementation Generally Complied with
       Recovery Act                                                         8

Appendix

      Scope and Methodology                                                  9
             Use of Technical Assistance                                     9
             Use of Computer-Processed Data                                 10
             Prior Audit Coverage                                           10
Introduction
Objective
Our overall objective was to evaluate DoD’s implementation of Public Law 111-5,
“American Recovery and Reinvestment Act of 2009,” February 17, 2009 (Recovery Act).
Specifically, we reviewed the planning, funding, execution, and tracking and reporting
phases of Recovery Act Project 1527, “Replace Capehart Pumping Station,” (Pumping
Station Project) and Project 1528, “Repair Backyard Landscape in Rushmore Heights,”
(Landscape Project) at Ellsworth Air Force Base (AFB), South Dakota. We determined
whether the efforts of the 28th Civil Engineer Squadron, 28th Comptroller Squadron,
28th Contracting Squadron, the United States Army Corps of Engineers (USACE) Omaha
District, and the project contractors complied with Recovery Act requirements, Office of
Management and Budget (OMB) Memorandum M-09-10, “Initial Implementing
Guidance for the American Recovery and Reinvestment Act of 2009,”
February 18, 2009, and subsequent related guidance.

Recovery Act and OMB guidance require projects to be monitored and reviewed. We
grouped these requirements into the following four phases: (1) planning, (2) funding,
(3) execution, and (4) tracking and reporting. See the appendix for a discussion of our
scope and methodology.

Background
In passing the Recovery Act, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most impacted by the recession;
provide investments to increase economic efficiency by spurring technological advances
in science and health; and invest in transportation, environmental protection, and other
infrastructure. The Recovery Act also established unprecedented efforts to ensure the
responsible distribution of funds for its purposes and to provide transparency and
accountability of expenditures by informing the public of how, when, and where tax
dollars were being spent. Further, the Recovery Act states that the President and heads of
the Federal departments and agencies were to expend these funds as quickly as possible,
consistent with prudent management.

DoD received approximately $7.16 billion 1 in Recovery Act funds to be used for projects
that support the Act’s purposes. In March 2009, DoD released expenditure plans for the
Recovery Act, which listed DoD projects that will receive Recovery Act funds. DoD
received approximately $4.26 billion in Recovery Act funds for Facilities Sustainment,
Restoration, and Modernization projects that support the Recovery Act’s purposes. Of
this amount, the Air Force was allocated about $16.5 million of Recovery Act funds for
Family Housing Operation and Maintenance and allocated approximately $500,000 of



1
 DoD originally received $7.42 billion; however, Public Law 111-226, Title III, “Rescissions,” rescinded
$260.5 million on August 10, 2010. The $7.16 billion does not include $4.6 billion for the U.S. Army
Corps of Engineers for Recovery Act civil works projects.


                                                    1
this amount to the Pumping Station Project and $125,000 to the Landscape Project.
USACE Omaha District, who provided contracting services for the Pumping Station
Project, awarded a task order under a competitive, multiple award task order contract
(MATOC) for $619,409; and the 28th Contracting Squadron at Ellsworth AFB, who
provided contracting services for the Landscape Project, awarded a task order under a
multiple award construction contract (MACC) for $87,903.

Ellsworth AFB is home for the 28th Bomb Wing and has approximately 7,700 active-duty
personnel and dependents assigned to the base. The base has approximately 1,900 family
housing units available to provide housing to active-duty personnel and their families.
The Pumping Station Project will upgrade the pumping station to meet the flow rate
requirements for 183 housing units and move the pumping station out of a flood zone.
The Landscape Project will repair the backyards of 75 family housing units.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance programs are operating as intended
and to evaluate the effectiveness of the controls. We identified an internal control
weakness in the administration of the Pumping Station and Landscape projects as defined
by DoD Instruction 5010.40. Specifically, the 28th Civil Engineer Squadron did not
provide adequate supporting documentation for the projects’ cost estimates; however,
competition mitigated the weakness, and no recommendation is required. Also, USACE
Omaha District and the 28th Contracting Squadron, Ellsworth AFB, incorporated Federal
Acquisition Regulation (FAR) clauses inappropriate to contracting actions for the
Recovery Act. In addition, the contractor for the Landscape Project incorrectly reported
some accounting information. We discuss these issues in detail in the Audit Results
sections of this report. Because management completed the necessary corrective actions
during the audit, we made no recommendations in this report. We will provide a copy of
the report to the senior officials responsible for internal controls.




                                           2
Audit Results. Pumping Station Project
The Pumping Station Project was a valid requirement, but personnel at the 28th Civil
Engineer Squadron did not adequately support the project’s cost estimate by documenting
the estimate’s underlying assumptions and analysis. However, USACE Omaha District
personnel mitigated the risk of the unsupported cost estimate by opening the contract
process to competition, which can establish price reasonableness. We also found that
USACE Headquarters personnel distributed Recovery Act funds in a timely manner,
contracting personnel ensured contracting actions for the Pumping Station Project
generally met Recovery Act requirements, and the contractor reported information as
required by the Recovery Act.

Planning: Project Needed But Cost Estimate Not
Adequately Supported
The 28th Civil Engineer Squadron personnel appropriately documented the requirement
for the Pumping Station Project. According to project planning documents, the new
Capehart Pumping Station will replace an existing sewer pump lift station. The planning
documents stated that the existing pumping station is at least 50 years old and has
reached the end of its useful life. In addition, the planning documents explained that
during heavy rains, the pumping station is
submerged by flood waters, and because the
                                                      The planning documents also stated
pumps and wet well are not sized according
                                                      the potential for environmental
to current Uniform Facilities Code standards,
                                                      impact; if the pumping station were
they do not effectively handle the flow rate
                                                      to flood again and could not meet
from 183 housing units. The planning
                                                      peak demands, the sewers could
documents also stated the potential for
                                                      then back up into homes or
environmental impact; if the pumping station
                                                      overflow manholes.
were to flood again and could not meet peak
demands, the sewers could then back up into
homes or overflow manholes. The Air Combat Command Sustain Team validated this
project in October 2007. We agree that the replacement of Capehart Pumping Station
will satisfy a justified need to provide adequate sewage service to base housing.

We were unable to determine if the project’s cost estimate was reasonable because the
28th Civil Engineer Squadron personnel did not document—and could not explain—the
assumptions and analysis used to develop the estimate. They completed the original
work request to replace the Capehart Pumping Station on October 25, 2007, with a cost
estimate of $500,000. The 28th Civil Engineer Squadron completed a DD Form 1391,
“Military Construction Project Data,” in February 2009, estimating the cost of the project
at about $500,000. A subsequent, independent government estimate completed by
USACE Omaha District personnel put the project cost at $751,409, and personnel
awarded the task order for the project on July 30, 2009, for about $619,000. According
to FAR 15.305-1, “Proposal Evaluation,” competition normally establishes price
reasonableness, and when contracting is conducted on a firm-fixed-price basis,
comparison of the proposed prices will usually satisfy the requirement to perform a price


                                            3
analysis. The solicitation to replace the Capehart Pumping Station was open to
contractors under the existing MATOC, and two contractors submitted firm-fixed-price
proposals. Because USACE Omaha District personnel opened the contract award process
to competition, we believe they mitigated the risk associated with a lack of supporting
documentation for the cost estimate.

Funding: USACE Headquarters Distributed Recovery
Act Funds Timely
USACE Headquarters distributed Recovery Act funds to USACE Omaha District in a
timely manner, and the funding documents properly included a Recovery Act
designation. Funding documents showed that USACE, Headquarters, transferred
Recovery Act funds in the amount of $500,000 to USACE Omaha District on
May 12, 2009, and an additional $193,000 of Recovery Act funds on July 21, 2009. The
funds covered the cost of the task order (about $619,000); USACE contingency (about
$31,000); and USACE supervision, inspection, and overhead fees (about $43,000). In
accordance with May 2009 guidance from the Office of the Under Secretary of Defense
(Comptroller), USACE had management discretion to use bid savings from other
Recovery Act projects to offset the cost growth in this project.

Execution: Initial Project Execution Adequate
USACE Omaha District personnel adequately performed the initial execution of the
project. We determined that they competitively solicited the Request for Proposal and
awarded the resulting task order with full transparency. Although the task order initially
contained an improper FAR clause, USACE Omaha District personnel modified it to
include only required FAR clauses and provisions for Recovery Act contract actions.

USACE Omaha District personnel competitively awarded the task order at a firm-fixed-
price of approximately $619,000 in July 2009, one month later than the milestone
included in DoD’s Recovery Act expenditure plan. The pre-solicitation posted by
USACE Omaha District on the Federal Business Opportunities (FBO) Web site clearly
stated that the notice was being provided for information purposes only and that the
opportunity for this contract was available only to contractors under a MATOC. USACE
Omaha District personnel evaluated the offers for best value and selected Fourfront Kurtz
Joint Venture. In addition, project files included documentation that Fourfront Kurtz
Joint Venture is registered on the Central Contractor Registration Web page, and the
Excluded Parties List System did not show Fourfront Kurtz Joint Venture as a debarred
or suspended contractor.

USACE Omaha District personnel properly recorded contract actions to facilitate full
transparency to the public. OMB Memorandum M-09-15, “Updated Implementing
Guidance for the American Recovery and Reinvestment Act of 2009,” April 3, 2009,
describes the requirements for reporting Recovery Act-funded actions in the Federal
Procurement Data System – Next Generation (FPDS) and publicizing actions on the FBO
Web site. USACE Omaha District personnel properly reported the task order award in
the FPDS and announced the solicitation and award on the FBO Web site.


                                             4
USACE Omaha District personnel incorporated all of the FAR clauses and provisions
required by Recovery Act implementation guidance, including those for whistleblower
protection reporting, the Davis-Bacon Act, and the Buy American Act. However, the
task order improperly contained both FAR 52.225-22, “Notice of Required Use of
American Iron, Steel, and Other Manufactured Goods-Buy American Act-Construction
Materials,” and FAR 52.225-22 Alternate I, “Notice of Required Use of American Iron,
Steel, and Other Manufactured Goods-Buy American Act-Construction Materials-
Alternate I.” We notified USACE Omaha District personnel, and they modified the task
order to remove FAR 52.225-22 Alternate I.

Tracking and Reporting: Contractor Reported Required
Information
The contractor, FourFront Kurtz Joint Venture, reported the recipient information
required by the Recovery Act. The contractor reported the project description, jobs
created, project status, and funds invoiced to www.federalreporting.gov as required by
FAR 52.204-11. This information is available for public viewing at www.recovery.gov.

Conclusion: Project Implementation Generally
Complied with Recovery Act
The Pumping Station Project generally complied with guidance implementing the
Recovery Act. We concluded the Pumping Station Project was a valid requirement.
Although 28th Civil Engineer Squadron personnel did not provide adequate
documentation to support the cost estimate, USACE Omaha District personnel opened
the contract award process to competition, thereby establishing price reasonableness.
The 28th Civil Engineer Squadron and USACE Omaha District funded and initially
executed the project in accordance with requirements of the Recovery Act. In addition,
the contractor for the project, FourFront Kurtz Joint Venture, properly reported
information required by the Recovery Act for the project on the Recovery.gov Web site.




                                           5
Audit Results. Landscape Project
The Landscape Project was a valid requirement, but personnel at the 28th Civil Engineer
Squadron did not adequately support the project’s cost estimate by documenting the
estimate’s underlying assumptions and analysis. However, 28th Contracting Squadron
personnel mitigated the risk of the unsupported cost estimate by competitively awarding
the task order. We also found that Air Combat Command personnel distributed
Recovery Act funds in a timely manner, the 28th Contracting Squadron personnel ensured
contracting actions generally met Recovery Act requirements, and the contractor reported
information as required by the Recovery Act.

Planning: Project Needed But Cost Estimate Not
Adequately Supported
Personnel at the 28th Civil Engineer Squadron appropriately documented the requirement
for the Landscape Project. On November 27, 2007, they prepared the work request to
repair the backyard landscape in Rushmore Heights, with an estimated cost of $125,000.
According to project planning documents, the repair of backyard landscape at Rushmore
Heights will remove existing landscape materials (edging, bark, mulch, brush, and
prickly bushes) from 75 housing units and install sod where the landscaping has been
removed. The planning documents also stated that the existing landscape materials were
difficult for the occupants and the maintenance contractor to maintain. This condition
increased the costs of unit turnover. We determined that the repair of backyard landscape
in Rushmore Heights will satisfy a valid need to provide quality of life for housing
occupants.

We were unable to determine whether the project cost estimate of $125,000 was
reasonable because personnel from the 28th Civil Engineer Squadron did not document—
and could not explain—assumptions and analysis used to develop the estimate.
According to FAR 15.305-1, “Proposal Evaluation,” competition normally establishes
price reasonableness, and when contracting is conducted on a firm-fixed-price basis,
comparison of the proposed prices will usually satisfy the requirement to perform a price
analysis. The solicitation to repair the backyard landscape in Rushmore Heights was
open to existing MACC contractors and resulted in the submission of three firm-fixed-
price proposals. Because multiple firm-fixed-price proposals were submitted, we believe
the risk associated with the lack of supporting documentation for the cost estimate was
mitigated.

Funding: Air Combat Command Distributed Recovery
Act Funds Timely
The Air Combat Command distributed Recovery Act funds to 28th Comptroller Squadron
in a timely manner, and the funding documents properly included a Recovery Act
designation. Funding documents showed that Air Combat Command transferred
Recovery Act funds in the amount of $94,100 to 28th Comptroller Squadron on
May 28, 2009. On June 5, 2009, Air Combat Command withdrew $6,100 of


                                            6
overpayment. The 28th Contracting Squadron awarded the task order on June 9, 2009, for
about $88,000, resulting in about $37,000 in bid savings ($125,000-$88,000). The Air
Combat Command initially retained the bid savings for use on other approved Recovery
Act projects within its purview. However, the funds were not needed, and Air Combat
Command returned them on September 22, 2010, to the Assistant Secretary of the Air
Force (Financial Management and Comptroller).

Execution: Project Execution Adequate
Personnel at the 28th Contracting Squadron adequately performed the execution of the
project. We determined that they competitively solicited the Request for Proposal and
awarded the resulting task order with full transparency. Although the task order
improperly included all FAR Recovery Act Buy American clauses, we are not
recommending the task order be modified because the project is complete and no foreign
materials were bought for use in the project.

The 28th Contracting Squadron personnel awarded this task order competitively among
existing MACC contractors. They awarded the task order at a firm-fixed-price of
approximately $88,000 in June 2009, the milestone for timeliness established by DoD’s
Recovery Act expenditure plan. The pre-solicitation posted by 28th Contracting Squadron
on the FBO Web site clearly stated that the notice was being provided for information
purposes only and that the opportunity for this contract was available only to contractors
under a MACC. The 28th Contracting Squadron evaluated the offers for the lowest
priced, technically acceptable proposal and selected Mountain Movers Ainsworth-
Benning LLC. In addition, project files included documentation that the Excluded Parties
List System did not show Mountain Movers Ainsworth-Benning LLC as a debarred or
suspended contractor, and we verified that Mountain Movers Ainsworth-Benning LLC is
registered on the Central Contractor Registration Web page.

In addition, the 28th Contracting Squadron personnel properly recorded contract actions
to facilitate full transparency to the public. OMB Memorandum M-09-15, “Updated
Implementing Guidance for the American Recovery and Reinvestment Act of 2009,”
April 3, 2009, describes the requirements for reporting Recovery Act-funded actions in
the FPDS and publicizing actions on FBO. The 28th Contracting Squadron personnel
properly reported the task order award in the FPDS and announced the solicitation and
award on the FBO Web site.

The 28th Contracting Squadron personnel incorporated the FAR clauses and provisions
required by Recovery Act implementation guidance, including those for whistleblower
protection reporting, the Davis-Bacon Act, and the Buy American Act. However, the
28th Contracting Squadron personnel improperly included all the Recovery Act Buy
American FAR clauses and provisions in the Request for Proposal instead of choosing
only the appropriate clauses and provisions for the project. We are not recommending
the project task order be modified because the project is complete and no foreign
materials were bought for use in the project.




                                            7
Tracking and Reporting: Contractor Reported Required
Information But Cited Incorrect TAFS
The contractor, Mountain Movers Ainsworth-Benning LLC, reported to the
Recovery.gov Web site as required by FAR 52.204-11 “American Recovery and
Reinvestment Act-Reporting Requirements.” However, Mountain Movers Ainsworth-
Benning LLC incorrectly reported the Treasury Account Fund Symbol (TAFS) code as
57 3400, “Operation and Maintenance, Air Force.” The correct TAFS code to use for
reporting to the Recovery.gov Web site is 57 0748, “Family Housing Operation and
Maintenance – Recovery Act, Air Force.” Without the correct TAFS code, DoD lacks
reasonable assurance that the use of Recovery Act funds was clear and transparent to the
public. We notified 28th Comptroller Squadron personnel, who contacted the contractor
to make the correction. We subsequently reviewed the Web site to ensure the contractor
made the correction.

Conclusion: Project Implementation Generally
Complied with Recovery Act
The Landscape Project generally complied with guidance for implementing the Recovery
Act. We concluded the Landscape Project was a valid requirement, but that personnel at
the 28th Civil Engineer Squadron did not
adequately support estimates. However,              However, competitively awarding
competitively awarding the task order on a          the task order on a firm-fixed-
firm-fixed-price basis offset the risk of           price basis offset the risk of
unsupported estimates by establishing price         unsupported estimates by
reasonableness. Air Combat Command                  establishing price reasonableness.
distributed Recovery Act funds to the
28th Comptroller Squadron in a timely manner, and the funding documents properly
included a Recovery Act designation. The 28th Civil Engineer Squadron and
28th Contracting Squadron personnel ensured the project was executed in accordance with
requirements of the Recovery Act, except for the inclusion of all Recovery Act Buy
American FAR clauses. However, we are not making a recommendation on the
Recovery Act Buy American FAR clauses issue because the project is complete and no
foreign materials were bought for use in the project. The contractor, Mountain Movers
Ainsworth-Benning LLC, corrected the TAFS code error used for reporting to the
Recovery.gov Web site and reported all other information required by the Recovery Act.




                                            8
Appendix. Scope and Methodology
We conducted this audit from September 2009 through August 2010 in accordance with
generally accepted government auditing standards. Generally accepted government
auditing standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
conclusions based on our audit objectives.

The overall objective was to evaluate DoD’s implementation of plans for the Recovery
Act. To accomplish our objective, we audited the planning, funding, execution, and
tracking and reporting of the Pumping Station and Landscape Projects at Ellsworth AFB,
South Dakota, valued at $500,000 and $125,000, respectively. Specifically we
determined whether:

   •   the selected projects were adequately planned to ensure the appropriate use of
       Recovery Act funds (Planning);
   •   funds were awarded and distributed in a prompt, fair, and reasonable manner
       (Funding);
   •   contracts awarded were transparent, competed, and contained FAR clauses
       required by the Recovery Act (Project Execution); and
   •   recipients’ use of funds was transparent to the public; and the benefits of the funds
       were clearly, accurately, and timely reported (Reporting).

We interviewed personnel from Ellsworth AFB, specifically from the 28th Civil Engineer
Squadron, the 28th Comptroller Squadron, and the 28th Contracting Squadron. We also
interviewed personnel from USACE Omaha District. We reviewed documentation
including the official contract files, DD Forms 1391 and associated support, cost
estimates, funding authorization documents, statements of work, task orders, MATOC,
and MACC. We also made observations of the two projects during a visit to Ellsworth
Air Force Base. We reviewed the FBO and FPDS Web sites for pre-solicitation,
modifications, and award postings. We also reviewed the Central Contractor Registration
and the Excluded Parties List System Web sites for information on the contractors. We
reviewed Federal, DoD, Air Force, and Ellsworth AFB guidance. Although we
determined whether the contractor reported in accordance with FAR 52.204-11, we did
not validate the data reported by the contractor to the www.Recovery.gov Web site at this
time. We plan to address the adequacy of recipient reporting in a future DoD Office of
the Inspector General report.


Use of Technical Assistance
Before selecting DoD Recovery Act projects for audit, the Quantitative Methods and
Analysis Division (QMAD) of the DoD Office of the Inspector General analyzed all DoD
agency-funded projects, locations, and contracting oversight organizations to assess the
risk of waste, fraud, and abuse associated with each. QMAD selected most audit projects


                                             9
and locations using a modified Delphi technique, which allowed QMAD to quantify the
risk based on expert auditor judgment and other quantitatively developed risk indicators.
QMAD used information collected from all projects to update and improve the risk
assessment model. QMAD selected 83 projects with the highest risk rankings; auditors
chose some additional projects at the selected locations. The Pumping Station and
Landscape projects covered in this report supplemented the 83 projects to provide
coverage of Air Force Family Housing projects.

QMAD did not use classical statistical sampling techniques that would permit
generalizing results to the total population because there were too many potential
variables with unknown parameters at the beginning of this analysis. The predictive
analytic techniques employed provided a basis for logical coverage not only of Recovery
Act dollars being expended, but also of types of projects and types of locations across the
Military Services, Defense agencies, State National Guard units, and public works
projects managed by USACE.

Use of Computer-Processed Data
We relied on computer-processed data from the FBO and FPDS Web sites. FBO is a
single, Government-wide point-of-entry for Federal Government procurement
opportunities. The FPDS is a dynamic, real-time database in which contracting officers
can update data to include new actions, modifications, and corrections. We compared
data generated by each system with the DoD expenditure plans, funding authorization
documents, and project and contracting documentation to support the audit conclusions.
We determined that the data were sufficiently reliable for the purposes of our report.

Prior Audit Coverage
The Government Accountability Office, the DoD Office of the Inspector General, and the
Military Departments have issued reports and memoranda discussing DoD projects
funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                            10
